No. _______

In the
Supreme Court of the United States

Reginald Franklin,
Petitioner,
v.
Robert LeGrand, Warden, et al.
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Proof of Service

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel for Reginald Franklin

I, Jonathan M. Kirshbaum, an attorney who is authorized to file a Petition for
Writ of Certiorari on behalf of Reginald Franklin, hereby certify that all parties
required to be served have been served on June 30, 2021, in accordance with Rule
28.4(a) and 29.3, one copy of the foregoing Petition for Writ of Certiorari, Appendix,
and Motion for Leave to Proceed In Forma Pauperis by delivering said copy, on
consent of opposing counsel, through electronic mail to Jessica E. Perlick, Senior
Deputy Attorney General, 555 E. Washington Ave., Ste. 3900, Las Vegas, Nevada
89101, JPerlick@ag.nv.gov.
Dated June 30, 2021
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/ Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

1

